Nos. 20-1530, 20-1531, 20-1778, and 20-1780
IN THE

Supreme Court of the United States
State of WEST VIRGINIA, et al.,
Petitioners,
v.
ENVIRONMENTAL PROTECTION AGENCY, et al.,
Respondents.
THE NORTH AMERICAN COAL CORPORATION,
Petitioner,
v.
ENVIRONMENTAL PROTECTION AGENCY, et al.,
Respondents.
WESTMORELAND MINING HOLDINGS LLC,
Petitioner,
v.
ENVIRONMENTAL PROTECTION AGENCY, et al.,
Respondents.
State of NORTH DAKOTA,
Petitioner,
v.
ENVIRONMENTAL PROTECTION AGENCY, et al.,
Respondents.
CERTIFICATE OF WORD COUNT
Oren L. Zeve, a member of the bar of this Court, certifies as required by Supreme
Court Rule 33.1(h) that the accompanying Brief for States and Municipalities in
Opposition contains 7,172 words excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Executed on August 5, 2021
. /s/ Oren L. Zeve
.
Oren L. Zeve
Managing Assistant Solicitor General
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005

